                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOLTT MEMORANDUM

Case Number: A03040015
                                                                             11          Page 1 of I



     The case allegation is a potential false statement made to NSF in text identified by the PI' of an
     ongoing grant2as student evaluations of a course3taught with NSF support in Spring 2002.
     These comments were included in a project progress report sent to NSF. The student comments
     were the same as also provided in the original proposal submitted earlier.

     We wrote to the PI of the grant to seek an explanation for the discrepancy and for information
     about the course(s) taught or developed with NSF support from the grant.
     The PI admits responsibility for the error, specifically the inclusion of student comments that
     were derived from a previous course. He explained that he composed the report while away from
     his workplace, and did not therefore have his colleagues or coPIs proof the document. He feels
     that they would have caught his inadvertent error.

     The PI provides registration information for the course taught with NSF support, and provided
     copies of the standard University survey/questionnaire completed by the students in the course.
     In addition, he provided copies of the completed student questionnaires specific to the course.
     The PI also provided a listing of two other courses taught with NSF support, and the completed
     standard University evaluation forms for students enrolled in these courses.

     To summarize, the PI claims that the inclusion of the wrong student comments was an
     unintentional error; we accept the explanation The PI has provided copies of the proper student
     evaluations for the course taught with NSF support. The allegation of a false statement is
     therefore without substance.

     Accordingly, this case is closed.




     '   redacted.
         redacted.
         redacted.
